No. 20A161
CAPITAL CASE
IN THE SUPREME COURT OF THE UNITED STATES
________________________________________________________________________
STATE OF OKLAHOMA, Applicant,
-vsSHAUN MICHAEL BOSSE, Respondent.
________________________________________________________________________
To the Honorable Neil M. Gorsuch,
Associate Justice of the United States Supreme Court and
Circuit Justice for the Tenth Circuit
________________________________________________________________________
APPLICANT’S MOTION FOR LEAVE TO FILE SUPPLEMENTAL REPLY
AND SUPPLEMENTAL REPLY IN RESPONSE TO MOTION AND BRIEF
OF THE UNITED STATES RESPECTING THE APPLICATION FOR A STAY
________________________________________________________________________

MIKE HUNTER
Attorney General of Oklahoma
MITHUN MANSINGHANI*
Solicitor General
CAROLINE E.J. HUNT
JENNIFER L. CRABB
Asst. Attorneys General
OKLAHOMA OFFICE OF THE ATTORNEY GENERAL
313 NE Twenty-First St.
Oklahoma City, OK 73105
mithun.mansinghani@oag.ok.gov
(405) 521-3921
*Counsel of Record
May 19, 2021

APPLICANT’S MOTION FOR LEAVE TO FILE SUPPLEMENTAL REPLY
Several days after Oklahoma filed its reply in support of its application for a
stay, the United States has sought leave to file an amicus brief respecting that
application. Assuming the Court grants the motion of the United States, Oklahoma
respectfully moves for leave to file this supplemental reply to the United States.
SUPPLEMENTAL REPLY IN RESPONSE TO MOTION AND BRIEF OF
THE UNITED STATES RESPECTING THE APPLICATION FOR A STAY
The United States does not contest the propriety of a stay respecting the first
question presented by Oklahoma’s application. See U.S. Br. 5-6. Meanwhile, the
United States agrees that, after McGirt, the practical importance of the second
question has “greatly increased.” Id. at 26; see also id. at 7. And the United States
acknowledges this Court’s prior cases on the scope of federal jurisdiction under the
General Crimes Act did not hold states lack jurisdiction over crimes like respondent’s,
while other cases address that question only in dicta. Id. at 10, 14, 17. Combined, this
puts the second question squarely within Rule 10(c): certiorari is warranted to review
“an important question of federal law that has not been, but should be, settled by this
Court.” The United States’ reasons for opposing a stay pending a certiorari petition
largely retread arguments already made and, to the extent they add anything new,
do not support—or in fact undermine—the arguments against a stay.
1. Like respondent, the United States does not point to any words in the
General Crimes Act, 18 U.S.C. § 1152, that divest the state of jurisdiction over nonIndian crimes like respondent’s. See Appl. 18-20; Appl. Reply 5. Instead, the United
States rests on the “inference” it draws from what it believes the Act “suggests” or
1

“indicates” based on what it surmises Congress “contemplated” and “no doubt
assumed.” U.S. Br. 11-14.1 Perhaps Congress assumed, as the United States
speculates, that it did not need to speak to state jurisdiction in Indian country
because state laws were thought to lack all force within tribal boundaries. But that
thought has long since been rejected, as recognized repeatedly by this Court. See
Appl. Reply 10. Or perhaps Congress was more concerned with granting federal
jurisdiction than addressing state jurisdiction because it sought to rectify the problem
of states unwilling to protect Indians within their borders—a reality that also,
thankfully, has been overcome. See, e.g., United States v. Kagama, 118 U.S. 375, 384
(1886). Either way, we are left with the text of Section 1152, which says nothing to
strip state jurisdiction. No less than with respect to tribal sovereignty, it is not this
Court’s role to divest a state of sovereignty over its own citizens within its borders
based on perceived congressional wishes; if it wants to do it, Congress “must say so.”
McGirt v. Oklahoma, 140 S. Ct. 2452, 2462 (2020). Congress hasn’t.2
Indeed, the United States is forced to admit (at 12) that the idea Congress
silently “occupied the entire field” in Section 1152 is contradicted by U.S. v.
McBratney, which held a state—on equal footing with all other states—has “criminal

Contrary to the position of the United States, nothing in the text of the Indian Trade and
Intercourse Act of 1790 excluded states from exercising jurisdiction over crimes committed
by non-Indians on tribal land within state borders.
1

Making the same mistake as the court below, the United States suggests that the Court
should ignore the definitive interpretation of the text of the General Crimes Act previously
given by the Court because that interpretation was in the context of deciding cases with
different facts. U.S. Br. 14 n.4. But no method of statutory interpretation contemplates words
changing their meaning depending on application. See Appl. 19-20.
2

2

jurisdiction over its own citizens and other white persons throughout the whole of the
territory within its limits, including the [] Reservation.” 104 U.S. 621, 624 (1881). So
the United States has causation backwards when it suggests states only have
jurisdiction over non-Indians “as a result” of the implicit repeal of federal jurisdiction.
Rather McBratney held because states inherently possess jurisdiction over nonIndians within their bounds—and no federal law excluded such jurisdiction—statutes
that granted federal jurisdiction over crimes involving only non-Indians in territories
were no longer applicable in a newly admitted state. Id.
2. Although the United States rehashes many of the arguments already
briefed, perhaps most notably the federal government stops short of respondent’s and
the tribe’s outdated position that states lack all authority on reservations unless
explicitly granted by Congress. See Appl. Reply 9-12. Instead, the United States
quotes this Court’s recognition of “[t]he States’ inherent jurisdiction on reservations”
unless “stripped by Congress.” U.S. Br. 18 (quoting Nevada v. Hicks, 533 U.S. 353,
365 (2001)). Then the United States cites cases analyzing whether state jurisdiction
is preempted by federal statute either explicitly (under normal preemption rules) or
implicitly (under a balancing of federal, state, and tribal interests). U.S. Br. 25 (citing
Cotton Petroleum Corp. v. New Mexico, 490 U.S. 163, 176-77 (1989); New Mexico v.
Mescalero Apache Tribe, 462 U.S. 324, 333-34 (1983); Ramah Navajo Sch. Bd., Inc. v.
Bureau of Revenue of New Mexico, 458 U.S. 832, 837-38 (1982)).
After all this, the United States sidesteps that preemption analysis and
contrarily asks whether federal statutes “permit” state jurisdiction. U.S. Br. 25.

3

Precedent does not support this transmogrification. Notwithstanding the United
States’ fudging of the analysis used in this Court’s caselaw, the text of the General
Crimes Act does not explicitly preempt state jurisdiction and the United States
recognizes that federal, state, and tribal interests do not counsel in favor of implicit
preemption. See U.S. Br. 26 n.9; see also id. at 6.3
3. Rejoining respondent and the tribe, the United States next points to laws
enacted a century after the General Crimes Act that grant some states jurisdiction
over crimes by or against Indians. U.S. Br. 19-22. But “the views of a subsequent
Congress form a hazardous basis for inferring the intent of an earlier one.” Marvin
M. Brandt Revocable Tr. v. United States, 572 U.S. 93, 109 (2014) (quoting United
States v. Price, 361 U.S. 304, 313 (1960)). As explained, congressional actions that
may have overinclusively presumed what earlier Congresses did does not substitute
for clear congressional text. See Appl. 23; Appl. Reply 9. Again, if Congress wishes to
adjust sovereign jurisdiction “it must say so.” McGirt, 140 S. Ct. at 2462.
Even more hazardously, the United States argues the recent introduction of a
bill that would permit state-tribal jurisdictional compacts in Oklahoma counsels
against certiorari. U.S. Br. 26-27. The existence of pending legislation tells little

In the United States’ view, the implied preemption analysis does not apply if a federal
statute “address[es] the subject.” U.S. Br. 25. Such a test, broadly looking to the “subject” of
federal legislation rather than inquiring whether the statute explicitly answers the precise
question at issue, is nowhere present in case law. In Cotton Petroleum, for example, the Court
applied its implicit preemption analysis to state oil and gas taxes on non-Indians operating
under leases pursuant to the Indian Mineral Leasing Act of 1938. It did so because “[t]he
1938 Act neither expressly permits state taxation nor expressly precludes it.” 490 U.S. at
177. The same is true here on the question of state jurisdiction in the General Crimes Act.
3

4

“[a]side from the very pertinent fact that the legislation is still unadopted.” United
States v. Am. Trucking Ass’ns, 310 U.S. 534, 550 (1940). That Congress has “has no
shortage of tools at its disposal” to answer vexing questions of Indian law does not
suffice to allow those questions to remain unanswered—otherwise, certiorari might
never be granted in an Indian law case. McGirt, 140 S. Ct. at 2482. All the more so
here where the United States has conspicuously declined to support the proposal thus
far, U.S. Br. 27, and at least one tribe is strongly opposing it.4 These are but a few of
the structural and political difficulties of enacting such legislation. Relying on justintroduced bills as a reason to deny certiorari is a perilous endeavor.
4. Finally, on irreparable harm, the United States makes explicit what
respondent implies by claiming the Interstate Agreement on Detainers will not apply
to respondent if released from state custody and held by the federal government. U.S.
Br. 28-29. Under its view, then, the United States has no duty to return respondent
to state death row even if this Court grants certiorari and reverses. See Appl. Reply
14. Tellingly, the United States only hints at returning respondent if the Agreement
applies, leaving uncertain what might happen otherwise. Oklahoma is thereby
justified in seeking a stay to avoid this likely irreparable harm.
CONCLUSION
For the foregoing reasons, this Court should grant the application to stay.

See Clifton Adcock, Federal legislation would allow state and tribes to strike deals to
prosecute crimes in Indian Country, THE FRONTIER (May 10, 2021),
https://www.readfrontier.org/stories/federal-legislation-would-allow-state-and-tribes-tostrike-deals-to-prosecute-crimes-in-indian-country/.
4

5

Respectfully submitted,

MIKE HuNTER

Attorney General of Okiahom a

MITHUN MANSINGHANI*

Solicitor General
CARoLINE E.J. HUNT
JENNIFER L. CBB

Assistant Attorneys General
313 NE 21st Street
Oklahoma City, Oklahoma 73105
(405) 521-3921
FAX (405) 521-6246
Counsel for Applicant

*Counsel of record

6

